STATE OF NEBRASKA

Office of the Attorney General

2115 STATE CAPITOL BUILDING
LINCOLN, NE 68509-8920
(402) 471-2682
TDD (402) 471-2682
FAX (402) 471-3297 or (402) 471-4725

 

JAMES D. SMITH

Solicitor Ge: 1
DOUGLAS J. PETERSON olicitor Genera

ATTORNEY GENERAL,

December 5, 2019

Scott Harris

Clerk of the United States Supreme Court
One First Street, N.E.

Washington, D.C. 20543

Re: Jenkins v. Nebraska, No. 19-514
Capital Case
Rule 30.4 extension request — unopposed

Dear Mr. Harris:

The Respondent State of Nebraska requests an extension to and including
January 10, 2020, to file its response brief in opposition to the Petitioner's petition
for a writ of certiorari. Petitioner’s counsel of record has advised the State’s
undersigned counsel that there is no objection to this request.

The extension request is made because undersigned counsel will be out of the
country for two weeks during the time period of the current due date for the brief in
opposition. The foregoing extended office absence occurred after undersigned’s prior
extension request letter of November 12, 2019, and was not anticipated at that time.
The Court is advised that the state court records for this case are massive, much of
which are in paper format in eight banker's boxes, resulting in additional time-
consuming review to avoid the potential waiver effect of Rule 15.2.

Sincerely,

D Smth

¥ James D. Smith
Solicitor General
Counsel of Record
james.smith@nebraska.gov
Tel: 402-471-2686
Fax: 402-471-3297
State of Nebraska, Respondent

 

pe: David D. Cole, Petitioner’s Counsel
